HHS/OIG-Audit--"Adjustments to the Medicare Fee Schedule Payments Based on Site of Service Differentials, (A-05-92-00007)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Adjustments to the Medicare Fee Schedule Payments Based on Site of Service
Differentials," (A-05-92-00007)
March 31, 1992
Complete Text of Report is available in PDF format
(243 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This audit report summarizes the results of our review of the Health Care Financing
Administration's (HCFA) methods for defining, and otherwise identifying, physician
services that should be subject to payment limitations based on the site of
service. Payment should continue to vary by site of service because practice
expenses differ between office and non-office sites. We recommended that HCFA
add a high-volume criterion to the existing definition of services routinely
performed in physicians' offices and use the revised definition to identify
physician services subject to the payment limitation. We also recommended that
the payment limitation be expanded to include the inpatient hospital and skilled
nursing facility settings. We estimate that our recommendations could result
in annual program and beneficiary savings of approximately $170 million.